                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: 1-12-05-0026                                                                     Page 1 of 1



         We received information that a university 1 had withheld a portion of a travel reimbursement for
         one of its professors2 who had attended an NSF-funded workshop 3 .

         Investigation revealed that the institution4 that hosted the workshop, reimbursed the professor at
         the per diem rate for the locale ofthe workshop. However, the professor's university withheld a
         portion of the reimbursement because the university policy only permits it to reimburse per diem
         at the rate for the university's home state -resulting in the university retaining approximately
         $141.69. After interviewing officials from the university and reviewing documentation, we
         determined that there were no systemic concerns of the university improperly retaining its
         employee's per diem payments. Documentation received from the institution that hosted the
         workshop did not indicate that other workshop attendees had been reimbursed at an inappropriate
         per diem rate.

         Due to the de minimis nature of this matter, no further investigative activity is warranted.

         Accordingly, this investigation is closed.




NSF OIG Form 2 (11/02)
